                          U.S. Department of Agriculture

                             Office of Inspector General
                                        Northeast Region



 

 


 

                 Audit Report


         Food Safety and Inspection Service
             Oversight of the Recall by
    Hallmark/Westland Meat Packaging Company




                                Report No. 24601-10-Hy
                                       September 2009
                             UNITED STATES DEPARTMENT OF AGRICULTURE
                                                      OFFICE OF INSPECTOR GENERAL

                                                              Washington D.C. 20250


DATE: September 30, 2009

REPLY TO
ATTN OF:                24601-10-Hy

TO:                     Alfred V. Almanza
                        Administrator
                        Food Safety and Inspection Service

ATTN:                   William C. Smith
                        Assistant Administrator
                        Office of Program Evaluation, Enforcement and Review

FROM                    Robert W. Young /s/
                        Assistant Inspector General
                         for Audit

SUBJECT:                Food Safety and Inspection Service Oversight of the Recall by
                        Hallmark/Westland Meat Packaging Company


SUMMARY

FSIS needs to improve its process for selecting companies to verify if recalled product is
retrieved effectively. During a food recall, FSIS contacts a statistically selected sample of
companies to verify that the recalled product is being located and retrieved effectively (i.e.,
effectiveness checks). FSIS selects the sample from a master list that comprises the recalling
company’s customers (e.g., wholesalers) and, in turn, their customers (e.g., retailers). Since some
companies down the distribution chain cannot accurately identify consignees to whom they may
have sold recalled product, FSIS may make its initial selection from the entire customer list so it
can immediately start conducting effectiveness checks. 1 Consequently, FSIS’ master list and the
resulting sample can include companies that did not receive any of the recalled products, and
therefore are irrelevant to determining if a recall was effective. FSIS has not developed a process
to refine such master lists before selecting samples, or issued nationwide guidance to ensure that
inappropriate selections are removed and companies that received recalled product are
substituted.

1
    Some establishments are unable to pinpoint when, where, and to whom a particular product or lot was sent because they use non-automated
    recordkeeping systems—e.g., paper receipts and ledger books. For example, FSIS described an archaic system where bills of sale were kept in
    a file box in the back of a warehouse. Also, some establishments use old computer software that is no longer compatible with current operating
    systems and software. In these cases, FSIS typically begins with all the possible destinations (entire customer lists) rather than delaying the
    recall by sifting through paperwork and translating electronic information to find out precisely where recalled product went. Although
    imprecise, this procedure is both quick (since most businesses can at least write out lists of their customers) and inclusive (since the resulting
    lists will contain the recalled product destinations along with other information).

USDA/OIG-AUDIT/24601-10-Hy                                                                                                                 Page 2
Without these controls, we found that 41 percent of the companies FSIS contacted about
Hallmark’s recall—83 of 203—were not useful for determining the recall’s effectiveness. Some
did not receive the beef and some did not sell meat at all, while others were out of business.
Although the FSIS district office that led the recall initially replaced some companies it knew
were either out of business or else did not buy and sell meat, it was not able to identify all of
these companies on the master list prior to the start of the effectiveness check process. In
addition, it did not replace companies that did not receive recalled product later when conducting
its own checks and reviewing other district offices’ work. Our review showed that FSIS
conducted effectiveness checks at 66 companies that did not purchase the recalled product,
12 that were not in the business of buying and selling meat, and 5 that were out of business.
According to staff from the lead district office, with no guidance on sample substitution 2 and
believing that they were under considerable time pressure 3 to finish, they chose not to replace
many of the companies determined to be irrelevant during and after the effectiveness check
process.

FSIS chose an interval sampling methodology to select companies for effectiveness checks. 4 We
found that the agency weakened its sampling methodology by not consistently applying a
constant interval to the universe of companies when selecting companies for effectiveness
checks. 5 In addition, we found that the interval of 47 that FSIS calculated and used excluded
106 companies from the statistical selection because the required sample number was reached
before the end of the master list. As a result, FSIS’ conclusion that Hallmark’s recall was
successful is not statistically supportable. OIG’s statistician reviewed the FSIS interval sampling
methodology and stated that the process would be statistically acceptable if FSIS addressed the
concerns identified in this report. Further, unless these issues are addressed, similar questions
could arise regarding the process for performing effectiveness checks in future recall situations.

We also verified that FSIS has generally taken appropriate actions in response to
recommendations we made in two earlier reports that assessed the agency’s recall procedures
and oversight. 6

FSIS agreed with the recommendations in this report. We have incorporated excepts from FSIS’
response in the Audit Results section of the report, along with our position, and accepted FSIS’
management decision on each of the recommendations. FSIS’ response is included in the
Attachment.




2
    In a 2006 presentation to the district offices, an FSIS official instructed staff members of district offices to replace a company if it would be
    closed longer than a few days. However, staff at all three district offices we visited were unaware of any agency guidance on sample
    substitution.
3
    District office staff stated in interviews that they believed they were under pressure to complete the work within short timeframes despite an
    email from the FSIS Office of Field Operations that emphasized an accurate effectiveness check process rather than a rapid process.
4
    This methodology relies on sample items being chosen based on a constant interval between sample units on the master list.
5
    The constant interval was not consistently applied because FSIS replaced 20 companies that were either out of business or did not sell meat
    with the next company on the master list.
6
    Our two previous reports were: “FSIS’ Effectiveness Checks for the 2002 Pilgrim’s Pride Recall,” (24601-03-Hy, June 2004) and “FSIS’
    Oversight of the 2004 Recall by Quaker Maid Meats, Inc.,” (24601-04-Hy, May 2005).

USDA/OIG-AUDIT/24601-10-Hy                                                                                                                   Page 3
BACKGROUND

FSIS is the public health agency that ensures that meat, poultry and egg products are safe,
wholesome, and properly labeled. In fiscal year 2008, FSIS inspected over 109 billion pounds of
meat and poultry carcasses, tested 56,000 raw meat samples for contamination, and verified that
companies met food safety standards. If meat, poultry, or egg products are adulterated (in the
case of Hallmark, because there was a risk that some cattle might not have received complete
and proper inspections as required by law) and have been distributed in commerce, FSIS will ask
the responsible company to recall the product. If the company refuses, FSIS has the authority to
seize and destroy the product.

In January 2008, the Humane Society released a video that showed Hallmark employees abusing
non-ambulatory cattle. In February 2008, FSIS investigated and found that Hallmark repeatedly
violated Federal regulations over a 2-year period by slaughtering cattle that were not well enough
to stand. 7 Known as downer cattle, these carry a higher risk of disease than healthy cattle. In
April 2009, FSIS amended the Federal meat inspection regulations to require that all downer
cattle be condemned. 8 Prior to this amendment, FSIS veterinarians were allowed to determine,
on a case-by-case basis, the disposition of cattle that became disabled after they passed pre-
slaughter inspection. However, between February 2006 and February 2008, Hallmark may have
slaughtered downer cattle and sold the meat to its customers (e.g., wholesalers) without notifying
FSIS’ inspectors. Although FSIS determined there was only a remote chance of getting sick from
the meat, the agency asked Hallmark to recall all the beef it had distributed during that time
because Hallmark did not comply with regulatory inspection requirements and the downers’
meat may have been mixed with meat from other cattle (e.g., in ground beef). Hallmark agreed to
voluntarily recall over 143 million pounds of beef produced in the previous 2 years—the largest
recall in U.S. history.

When a company undertakes a recall, FSIS obtains a list of its customers (e.g., wholesalers) and
then contacts the wholesalers to get their lists of customers (e.g., retailers such as grocery
stores). 9 From these, FSIS compiles a master distribution list of potential recipients and selects a
sample for Enforcement, Investigation, and Analysis Officers (EIAO) to contact to verify if the
recall is effective—i.e., if the product is being located, controlled, and retrieved. FSIS uses
interval sampling as its statistical selection methodology, which means that companies are
chosen based on a constant interval between them on the master distribution list. For example,
FSIS calculated 47 as the appropriate interval for Hallmark’s recall, so every 47th company on
the agency’s master distribution list was to be selected for an effectiveness check.

After selection, FSIS applies critical limits for determining whether a recall is effective. In
general, the higher the health risk, the more companies FSIS contacts and the fewer it tolerates
with recalled product still available for consumers following a recall (see exhibit A). For
example, FSIS assessed Hallmark’s recalled beef as having a remote chance to cause illness, and
so, from a master list of 9,502, the agency required 200 effectiveness checks with a limit of
12 recipients that could have the product available for consumers. If it found 13 or more, FSIS
7
    Title 9 Code of Federal Regulations (CFR) 309.3(e).
8
    Federal Register Volume 74, No. 51, Wednesday, March 18, 2009.
9
    FSIS Directive 8080.1, Revision 4, Attachment 3, “Recall of Meat and Poultry Products” (Mar. 2, 2006).

USDA/OIG-AUDIT/24601-10-Hy                                                                                   Page 4
would have declared the recall ineffective. Instead, FSIS’ effectiveness checks found no
companies with the recalled product available. FSIS concluded the recall was effective and
closed it in April 2008 with Hallmark having recovered and destroyed 51.7 million pounds of
meat.

We conducted two prior audits of FSIS’ effectiveness checks and oversight of recalls. In June
2004, we evaluated FSIS’ effectiveness checks for the 2002 Pilgrim’s Pride poultry recall. In
May 2005, we examined FSIS’ oversight of the 2004 Quaker Maid Meats beef recall. These
audits did not identify the issues we found during this review because, prior to the Pilgrim’s
Pride audit, FSIS had no process in place for selecting customers to check the effectiveness of a
recall. 10 In total, the reports offered seven recommendations that have generally been
implemented. For example, in our audit of the Pilgrim’s Pride recall, we recommended that FSIS
develop a process for selecting customers to check the effectiveness of a recall. FSIS responded
by implementing a process for selecting customers based on health risk, and it was this process
which FSIS used to evaluate the effectiveness of the Hallmark recall. 11 As discussed above,
when consumer risk rises, FSIS checks a recall’s effectiveness more quickly and with more
customers.

OBJECTIVE

We conducted this audit to evaluate FSIS’ effectiveness checks of Hallmark’s 2008 beef recall.
We also assessed whether FSIS had implemented corrective actions in response to
recommendations we made in our two prior reports on the agency’s recall process.

SCOPE AND METHODOLOGY

To understand and evaluate FSIS’ process for conducting effectiveness checks—specifically for
the Hallmark recall—we interviewed officials at FSIS’ Headquarters in Washington, D.C., and
agency officials at 3 of the 13 district offices involved in the company’s recall. 12 We also
reviewed policies and procedures for conducting a meat recall. 13 We performed our fieldwork
from June through November 2008. Subsequent to this date, however, we continued to work
with the OIG statistician to resolve questions regarding FSIS’ statistical sampling procedures.

As required by its procedures, FSIS statistically selected 200 potential Hallmark beef recipients
from its master list of 9,502 potential recipients. FSIS determined that 20 of the sampled 200 did
not receive the beef (either they did not sell or receive the meat during the relevant time period or
were out of business). FSIS then selected another 23 companies to replace those who were


10
     The Quaker Maid Meats recall was much smaller in scope and focused primarily on then-recent changes to policy.
11
     FSIS classifies the risk from consuming recalled product at three levels. Class I risks have a reasonable probability that consumers may
     become seriously ill or die. Class II risks (Hallmark’s) have a remote probability for illness. Class III risks have no chance of sickness. (See
     exhibit A.)
12
     We selected three district offices. One of these offices led FSIS’ oversight of Hallmark’s recall (Alameda, California) and conducted the most
     effectiveness checks (145). Another office, Denver, Colorado, conducted the second highest number of FSIS’ effectiveness checks (19). We
     selected the third office in Beltsville, Maryland, to provide adequate audit coverage.
13
     The policies and procedures we reviewed include FSIS Directive 8080.1, Revision 4, Attachment 3, “Recall of Meat and Poultry Products”
     (March 2, 2006), draft “District Recall Methodology” (July 11, 2005), and FSIS’ draft “Recall Methodology for Enforcement Investigations
     Analysis Officer,” (March 24, 2006). These policies and procedures did not address replacing inappropriate sample selections.

USDA/OIG-AUDIT/24601-10-Hy                                                                                                                Page 5
irrelevant to determining the recall’s success, for a total of 203 to contact. 14 We examined all
203 effectiveness checks to determine if FSIS followed its policies and procedures. We also
selected a random sample of 30 effectiveness checks to verify that the information which FSIS
obtained was accurate.

In addition, we evaluated FSIS’ statistical sampling methodology for effectiveness checks and
followed up on FSIS’ response to seven recommendations we made in two earlier OIG reports
about FSIS’ oversight of recalls.

We conducted this performance audit in accordance with generally accepted government
auditing standards. These standards require that we plan and perform our audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence we obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

AUDIT RESULTS

FSIS’ Effectiveness Checks Selection Process Needs Improvement

FSIS needs to improve its process for selecting companies to verify if recalled product is
retrieved effectively. FSIS made errors in implementing its statistical methodology for selecting
a sample of companies to contact about the effectiveness of Hallmark’s recall. Most
significantly, 83 of the 203 companies FSIS contacted did not have or did not distribute
Hallmark’s beef and so were irrelevant for determining the recall’s success. In addition, FSIS’
master distribution list of potential recipients contained 480 duplicate companies that made it
more likely that some businesses would be selected than others. 15 Fundamentally, this occurred
because FSIS has not developed a process to eliminate duplicates from its master list before
selecting samples, or provided nationwide guidance on replacing inappropriate sample
selections. As a result, FSIS’ conclusion regarding the success of Hallmark’s recall is
questionable, and the agency similarly lacks assurance that its conclusions regarding the
effectiveness of future recalls will be statistically supportable.

During a food recall, FSIS’ policy requires the agency to verify with a statistically selected
sample of buyers whether recalled product is being located, controlled, and retrieved. The
sample size is based on public health risk as determined by FSIS (see exhibit A). To do this,
FSIS first compiles a master list from the recalling company’s customers (e.g., wholesalers) and
then their customers (e.g., retailers). Since some companies are not able to accurately identify
who they sold the recalled product to, FSIS may make its initial selections using the master
distribution list (the customer list from the company named in the recall plus the lists maintained
by that company’s own customers) so that agency officials can immediately begin verifying the

14
     The agency was unable to provide any documents detailing why it added 3 more customers in addition to the required 200 and officials could
     not recall their basis for the decision.
15
     If a consignee appears on the master distribution list multiple times, that consignee has a higher probability of being selected than does one that
     is on the master distribution list only one time. That creates a difference in the consignee selection probability that is not accounted for in the
     underlying methodology taken from a Department of Defense acceptance testing military standard, MILSTD 105E, in which each entity has
     only one chance of being selected. Even if the consignee does not end up being selected in the sample multiple times, the selection
     probabilities are distorted. The distortion would persist even if later, after sample selection, the duplicates were removed from the universe.

USDA/OIG-AUDIT/24601-10-Hy                                                                                                                   Page 6
recall’s effectiveness. Consequently, FSIS’ master list represents potential product recipients,
and can contain duplicates (where two or more companies have the same customer) as well as
companies that are out of business, or that did not purchase the recalled product. FSIS has no
national guidance about removing duplicates from the master list, or replacing inappropriate
members.

In Hallmark’s case, FSIS compiled a potential recipient list of 9,502 companies (including
480 duplicates). Based on this number and the agency’s determination that there was only a
remote health risk from consuming the beef, FSIS statistically selected 200 to contact (see
exhibit A). In reviewing the sample, FSIS’ staff in the district office leading the recall noticed
that 20 of the 200 companies were either out of business, or did not sell meat. They replaced
each of the 20 with the next company on the master list.

By doing this after the initial sample selection, FSIS weakened the sample’s integrity as an
interval sample, which relied on a constant gap of 47 between selected companies. Once FSIS
began replacing companies with the next entry on the master list, it altered the interval for the
rest of the sample so that 132 selections in total ended up deviating from FSIS’ interval. Even if
done correctly, we also determined that FSIS’ calculated interval excluded 106 companies from
statistical selection because the required sample size (200) was reached before the end of the
master list.

After replacing the 20 companies that were either out of business or did not sell meat—and then
adding 3 others 16 —the lead district office split the resulting list of 203 among itself and other
district offices nationwide to conduct effectiveness checks according to locality. On their own
initiative, a few offices replaced some companies that they found did not buy or sell Hallmark’s
beef, but most offices did not. 17 Including these replacements, FSIS’ district offices found that a
total of 83 companies contacted did not have Hallmark’s beef: 66 did not buy the beef, 12 were
not in the business of buying or selling meat (e.g., a bakery), and 5 were out of business. After all
the sampled companies were contacted, the lead office reviewed the district offices’ work
(effectiveness check forms), but did not have them contact other companies to replace the ones
who were out of business or did not purchase the recalled product. FSIS needs to improve its
feedback process between the lead district office and the field EIAOs conducting the
effectiveness checks when they determine that a company did not receive the recalled product.

When we asked lead district office staff why they initially replaced companies but did not do so
later, they explained that they believed they were under considerable pressure to complete the
process due to the size of the recall. 18 Since there was no nationwide guidance about
replacement, they chose not to require more effectiveness checks. However this decision
undercut the statistical viability of FSIS’ conclusion that the recall was effective. In effect, only
59 percent of the verifications FSIS conducted were relevant to assessing Hallmark’s recall. FSIS
should develop guidance to replace inappropriate companies in their sample with companies that
received recalled product.

16
     As we discuss in our “Scope and Methodology” section, FSIS was unable to explain why it added 3 more companies after replacing 20.
17
     Three of FSIS’ district offices replaced 12 companies that did not buy or sell meat.
18
     District office staff stated in interviews that they believed they were under pressure to complete the work within short timeframes despite an
     email from the FSIS Office of Field Operations that emphasized an accurate effectiveness check process rather than a rapid process.

USDA/OIG-AUDIT/24601-10-Hy                                                                                                                 Page 7
In addition to a lack of guidance, FSIS’ errors in implementing its statistical selection
methodology are also based on not having a statistician monitor the agency’s interval sampling.
For example, an FSIS official noted that replacements were selected using a method that was
intended to keep the sample “random.” However, a statistician would have likely noticed that the
20 replacements were not random, and that they disrupted FSIS’ interval for the rest of the
sample (the 132 deviations noted above). Further a statistician would have insisted that
duplicates be removed from the master distribution list before selection as they make it more
likely that some businesses will be selected than others. 19 Accordingly, we recommend that
FSIS strengthen its oversight of the recall effectiveness process by having a statistician available
to oversee both statistical selection and sample replacement if necessary.

FSIS should also have a statistician formally evaluate the appropriateness of interval sampling
for effectiveness checks. Interval sampling may be adequate for FSIS’ purposes with proper
implementation, but the agency has not had a statistician formally evaluate its needs and
capabilities in order to determine the most appropriate statistical methodology. Instead, FSIS’
policy staff stated that they chose interval sampling for effectiveness checks because this
methodology was readily available at no cost to the agency. They asked an FSIS statistician to
informally look over their methodology to see if it was acceptable, but not to formally evaluate it
against other alternatives.

For example, random sampling gives all members of a list a chance of being selected, unlike
FSIS’ interval sampling which excluded 106 potential Hallmark beef recipients at the end of the
master list. It is also easier to maintain a sample’s statistical integrity when replacing members
with random sampling, which does not require that a constant interval be maintained during
replacement. Further, according to OIG’s statistician, random sampling is universally acceptable
and better mathematically supported than interval sampling.

We therefore recommend that an FSIS statistician conduct a formal, documented analysis to
determine the most suitable sampling methodology for FSIS’ effectiveness check process. We
also recommend that FSIS formally include a statistician as the agency implements a process to
(1) purge the master distribution list of duplicates and any other irrelevant companies before
sample selection, and (2) replace inappropriate companies in a way that maintains the sample’s
statistical integrity. Together, these actions will help provide FSIS with a statistically supportable
basis for determining the effectiveness of future recalls.

Recommendation 1

Conduct a formal, documented statistician’s analysis to determine and adopt the most suitable
statistical methodology for selecting companies to verify a recall’s effectiveness. This
methodology should include specific instructions for eliminating duplicate product recipients in
companies’ master distribution lists, and for replacing sampled customers who did not receive
recalled products or are out of business.



19
     These statements were based on an assessment by OIG’s statistician.

USDA/OIG-AUDIT/24601-10-Hy                                                                    Page 8
Agency Response

The Office of Data Integration and Food Protection (ODIFP) will assign a statistician to evaluate and
strengthen FSIS' statistical methodology for recall effectiveness checks. This review will compare
various statistical sampling tools and their potential utility in recall situations. Working with the
Office of Policy and Program Development (OPPD), ODIFP then will develop directions for
eliminating duplicate product recipients, improving the feedback process to replace inappropriate
effectiveness check selections, and achieving desired statistical sample sizes. This analysis will be
completed and a final report produced by February 2010. The Directions will then be incorporated
into FSIS Directive 8080.1 by OPPD.

OIG Position

We accept FSIS’ management decision.

Recommendation 2

Ensure that the statistician’s analysis referenced in Recommendation 1 results in a written,
nationwide process to be followed by all FSIS field units when conducting recall effectiveness
checks.

Agency Response

As stated in the response to recommendation I, OPPD will revise FSIS Directive 8080.1 to
incorporate the changes in the recall effectiveness check process developed by ODIFP. OPPD will
revise and publish the Directive by April 2010.

OIG Position

We accept FSIS’ management decision.

Recommendation 3

Ensure that the process described in Recommendation 2 includes guidance for FSIS field units to
use in determining the circumstances under which a statistician needs to be consulted during the
recall effectiveness check process. Also, develop plans to ensure that statisticians are available as
needed during each recall effectiveness check.

Agency Response

Revisions to FSIS Directive 8080.1 will include guidance for FSIS field units to use in determining
the circumstances under which a statistician needs to be consulted during the recall effectiveness
check process. Assigned staff from ODIFP with statistical training will be available for statistical
assistance. The Directive will also include instructions for contacting assigned staff from ODIFP
with statistical training, when necessary. Based on past experience, the need for such consultation
should be relatively rare. OPPD will revise and publish the Directive by April 2010.

USDA/OIG-AUDIT/24601-10-Hy                                                                     Page 9
In a followup telephone contact, FSIS officials clarified that it would be statisticians with PhD’s
or masters degrees who would be used for the statistical assistance and consultation work.

OIG Position

We accept FSIS’ management decision.

Please follow your internal agency procedures for reporting final action to the Office of the Chief
Financial Officer. Please note that Departmental Regulation 1720-1 requires final action to be
completed within 12 months of management decision.

We appreciate the courtesies and cooperation extended to our staff during our review.




USDA/OIG-AUDIT/24601-10-Hy                                                                  Page 10
Exhibit A – Effectiveness Checks Required and Thresholds for
            Ineffective Recall
                                                                                Exhibit A – Page 1 of 3

Table 1. Recommended timeframes for initiating and reporting verification activities within
FSIS

  Recall                Following the initiation of a        Following their initiation, FSIS
  classification        recall, FSIS verification activities verification activities should be
                        should begin as soon as possible     substantially completed within
                        within a period of:                  a period of:
  Class I               3 days*                              10 days
  Class II              5 days                               12 days
  Class III             10 days                              17 days
*These denote working days, which may include Saturday and Sunday, depending upon the risk
associated with a recalled product.

Table 1 describes, for each Recall classification, when FSIS verification activities should begin
and when they should be substantially completed. In a Class I recall there is a health hazard
situation where there is a reasonable probability that the use of the product will cause serious,
adverse health consequences or death. In a Class II recall there is a health hazard situation where
there is a remote probability of adverse health consequences from the use of the product. In a
Class III recall there is a situation where the use of the product will not cause adverse health
consequences.

Table 2. Effectiveness checks to conduct and critical limits for all Class I recalls involving an
illness or outbreak based on epidemiological evidence or with school lunch implications.

Number of                Number of Effectiveness      Recall Considered Ineffective if the
Customers                Checks to Make               Number of Customers at which Product
                                                      was Available to Consumers Exceeds:
1 to 200                 All, up to 200               0
201 to 10,000            200                          0
10,001 to 35,000         800                          1
35,001 to 500,000        800                          1
500,001 and over         1,250                        2

Table 2 relates to all Class I recalls where there are illnesses, outbreaks, or school lunch
implications. It describes, for given numeric ranges of potential customers, how many
effectiveness checks FSIS needs to make. It also describes the number of positive results (cases
where recalled product was found to be available to consumers) that would lead FSIS to
conclude that the recall was ineffective.




USDA/OIG-AUDIT/24601-10-Hy                                                                   Page 11
Exhibit A – Effectiveness Checks Required and Thresholds for
            Ineffective Recall
                                                                                Exhibit A – Page 2 of 3

Table 3. Effectiveness checks to conduct and critical limits for Class I recalls when there are no
illnesses, outbreaks, or school lunch implications.

Number of                Number of Effectiveness       Recall Considered Ineffective if the
Customers                Checks to Make                Number of Customers at which Product
                                                       was Available to Consumers Exceeds:
1 to 20                  All, up to 20                 0
21 to 150                20                            0
151 to 1,200             80                            1
1,201 to 2,300           125                           2
2,301 to 10,000          200                           3
10,001 to 35,000         315                           5
35,001 to 150,000        500                           8
150,001 to 500,000       800                           12
500,001 and over         1250                          18

Table 3 relates to Class I recalls when there are no illnesses, outbreaks, or school lunch
implications. It describes for given numeric ranges of potential customers, how many
effectiveness checks FSIS needs to make. It also describes the number of positive results (cases
where recalled product was found to be available to consumers) that would lead FSIS to
conclude that the recall was ineffective.

Table 4. Effectiveness checks to conduct and critical limits for Class II recalls or (optionally)
for Class III recalls when a firm does not have a Recall Plan.

Number of                Number of Effectiveness       Recall Considered Ineffective if the
Customers                Checks to Make                Number of Customers at which Product
                                                       was Available to Consumers Exceeds:
1 to 5                   All, up to 5                  0
6 to 25                  5                             0
26 to 150                20                            1
151 to 280               32                            2
281 to 500               50                            3
501 to 1,200             80                            5
1,201 to 2,300           125                           8
2,301 to 10,000          200                           12
10,001 and over          315                           18




USDA/OIG-AUDIT/24601-10-Hy                                                                   Page 12
Exhibit A – Effectiveness Checks Required and Thresholds for
            Ineffective Recall
                                                                                Exhibit A – Page 3 of 3

Table 4 relates to Class II recalls or (optionally) Class III recalls when a firm does not have a
Recall Plan. It describes, for given numeric ranges of potential customers, how many
effectiveness checks FSIS needs to make. It also describes the number of positive results (cases
where recalled product was found to be available to consumers) that would lead FSIS to
conclude that the recall was ineffective.

Table 5. Effectiveness checks to conduct and critical limits for Class III recalls.

Number of                Number of Effectiveness       Recall Considered Ineffective if the
Customers                Checks to Make                Number of Customers at which Product
                                                       was Available to Consumers Exceeds:
1 to 8                   All, up to 8                  1
9 to 50                  8                             1
51 to 90                 13                            2
91 to 150                20                            3
151 to 280               32                            5
281 to 500               50                            8
501 to 1,200             80                            12
1,201 and over           125                           18

Table 5 relates to Class III recalls. It describes, for given ranges of potential customers, how
many effectiveness checks FSIS needs to make. It also describes the number of positive results
(cases where recalled product was found to be available to consumers) that would lead FSIS to
conclude that the recall was ineffective.

The numbers on Tables 2 through 5 are derived from FSIS’ sampling methodology; specifically,
Military Standard 105E, “Sampling Procedures and Tables for Inspection by Attribute.”




USDA/OIG-AUDIT/24601-10-Hy                                                                   Page 13
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 2




USDA/OIG-AUDIT/24601-10-Hy                 Page 14
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 2




USDA/OIG-AUDIT/24601-10-Hy                 Page 15
